i

2

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

FILED

No. 19-50468
Summary Calendar

July 9, 2020
Lyle W. Cayce
Clerk

ANTHONY KINTA WEBB,
Petitioner-Appellant,
versus
LORIE DAVIS, Director,
Texas Department of Criminal Justice, Correctional Institutions Division,
Respondent-Appellee.

Appeal from the United States District Court
for the Western District of Texas
No. 6:18-CV-270

Before HIGGINBOTHAM, SMITH, and OLDHAM, Circuit Judges.
PER CURIAM:*
Anthony Webb, Texas prisoner #2077771, moves for a certificate of
* Pursuant to 5TH CIRCUIT RULE 47.5, the court has determined that this opinion
should not be published and is not precedent except under the limited circumstances set forth
in 5th Circuit Rule 47.5.4.
-

No. 19-50468
appealability (“COA”) to appeal the denial of his 28 U.S.C. § 2254 petition chal­
lenging his conviction of assault by occlusion and the associated sentence. To
obtain a COA, a petitioner must make “a substantial showing of the denial of
a constitutional right.” 28 U.S.C. § 2253(c)(2); Miller-El v. Cockrell, 537 U.S.
322, 336 (2003). If the district court denies relief on the merits, the petitioner
must establish that reasonable jurists would find the district court’s assess­
ment of the claims debatable or wrong. Slack v. McDaniel, 529 U.S. 473, 484
(2000). If relief is denied on procedural grounds, a COA should issue if the
petitioner demonstrates, at least, that jurists of reason would find it debatable
whether the application “states a valid claim of the denial of a constitutional
right and that jurists of reason would find it debatable whether the district
court was correct in its procedural ruling.” Id.
Webb contends that his right to a speedy trial was violated and that
the trial court violated his due process rights by failing to instruct the jury on
a lesser-included offense. He maintains that the evidence was insufficient to
support his conviction and that the district court erred in dismissing his claim
of insufficient evidence on procedural grounds. Webb asserts that trial counsel
was ineffective in several respects and that appellate counsel was ineffective
for failing to challenge the enhancement of his sentence on account of a prior
conviction. He also asserts that the prosecution violated his due process rights
by failing to correct false testimony and violated Brady v. Maryland, 373 U.S.
83 (1963). Because he has failed to make the requisite showing on any of the
above claims, the request for a COA is DENIED. See Slack, 529 U.S. at 484.
Webb also contends that the district court erred by failing to conduct
an evidentiary hearing. To the extent that Webb seeks a COA on that issue,
his request is construed “as a direct appeal from the denial of an evidentiary
hearing.” Norman v. Stephens, 817 F.3d 226, 234 (5th Cir. 2016). Because
2

No. 19-50468
Webb has failed to demonstrate that the district court abused its discretion in
denying an evidentiary hearing, we AFFIRM.

See Cullen v. Pinholster,

563 U.S. 170, 185-86 (2011); Norman, 817 F.3d at 235. Webb’s motion for the
appointment of counsel is DENIED.

3

*

✓

!/

n

3

'/

Filed 05/09/2019 Page 1 of 1

Case 6:18-cv-00270 Document 25

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
WACO DIVISION
ANTHONY KINTA WEBB #2077771

§
§
§
§
§

V.
LORIE DAVIS

W-18-CA-270-ADA

FINAL JUDGMENT
Before the Court is the above styled and numbered cause. On this date, the
Court denied Petitioner Anthony Kinta Webb's Application for Habeas Corpus Relief and
determined that a certificate of appealability shall not be issued. Accordingly, as all
issues in this cause have been resolved, the Court renders the following Final Judgment
pursuant to Federal Rule of Civil Procedure 58.
It is therefore ORDERED that Petitioner Anthony Kinta Webb's Application for
Habeas Corpus Relief is hereby DENIED.
It is finally ORDERED that the above styled and numbered cause is hereby
CLOSED.
SIGNED on May 9, 2019
v..

%

A

>«.

A

%

V >'

A

i'' '

1;

&
i
Vm.

-y}

*

ALAN D ALBRIGHT
UNITED STATES DISTRICT JUDGE

l

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 1 of 21

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
WACO DIVISION

ANTHONY KINTA WEBB #2077771
V.
LORIE DAVIS

§
§
§
§
§

W-18-CA-270-ADA

ORDER
Before the Court is Petitioner's Application for Habeas Corpus under 28 U.S.C. §
2254 (#1), Petitioner's Memorandum in Support (#2), Petitioner's Amended Application
for Habeas Corpus under 28 U.S.C. § 2254 (#16), Petitioner's Amended Memorandum
in Support (#17), Respondent's Response (#11), Petitioner's Reply (#14), Respondent's
Amended Response (#22), and Petitioner's Reply (#23). Petitioner is proceeding pro se
and in forma pauperis. For the reasons set forth below, Petitioner's application for writ
of habeas corpus is denied.
STATEMENT OF THE CASE
A.

Petitioner's Criminal History
According to Respondent, the Director has lawful and valid custody of Petitioner

pursuant to a judgment and sentence of the 19th District Court of McLennan County,
Texas for assault family violence by occlusion, enhanced by a prior conviction for
aggravated assault. Ex parte Webb, App. No. 88474-01 (SHCR (#12-26) at 62-63.
Petitioner pleaded "not guilty" to the offense, but "true" to the enhancement. Id. A jury

i

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 2 of 21

found Petitioner guilty of the offense, and on June 17, 2016, the court sentenced
Petitioner to 15 years of imprisonment. Id.
Petitioner appealed to the Tenth Court of Appeals which affirmed the trial court's
judgment. Webb v. State, No. 10-16-00212-CR, 2017 WL 4543660, at *4 (Tex. App.—
Waco 2017, pet. ref'd) (SHCR (#12-26) at 67-76). Petitioner filed a petition for
discretionary review, which was refused by the Texas Court of Criminal Appeals on
February 28, 2018.
On March 19, 2018, Petitioner signed his first state habeas application. SHCR
(#12-26) at 18. The Texas Court of Criminal Appeals dismissed this application on June
13, 2018, because Petitioner's conviction was not yet final. See SHCR (#12-25). On
June 26, 2018, Petitioner signed his second state habeas application and on September
26, 2018, the Texas Court of Criminal Appeals denied this application without written
order on the findings of the trial court. Resp. Ex. A (#21-1). Petitioner signed his
federal habeas petition on September 12, 2018, and his amended federal petition on
November 26, 2018.
B.

Factual Background
The Tenth Court of Appeals summarized the victim's testimony as follows:
Willis testified that she and Webb lived together in an apartment and that
they had previously dated one another. On the night in question, Webb
was playing an Xbox video game in the master bedroom where Willis
slept. Willis repeatedly asked Webb to turn off the game and go to the
living room, so she could go to sleep. Webb refused. Subsequently, Willis
got up to unplug the Xbox, and Webb "leaned across the bed, grabbed
[her] neck, and that's what started it." Willis described the incident as
Webb placing his "hands around [her] neck ... but then he proceeded to
grab—you know, moved his hand down and was pinching the windpipe."
Because Webb was pinching her windpipe, Willis was unable to breathe.
2

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 3 of 21

Willis could not recall how long the choking took place but that she began
to see stars and "little bursts of whiteness." Later, Willis showed the jury a
scar on her neck that was caused by the incident. . . . Webb denied ever
touching Willis and asserted that Willis had kicked him in the ribs.
Webb, 2017 WL 4543660, at *8-9 (SHCR (#12-26) at 67-76).
C.

Petitioner's Grounds for Relief
Petitioner raises the following grounds for relief:
1. Petitioner was denied the right to a speedy trial.
2. The trial court erred by denying Petitioner's requested lesser included offense
instruction.
3. Petitioner was denied the effective assistance of trial counsel because his trial
counsel failed to
a. hire a medical expert;
b. present exculpatory evidence;
c. impeach the complainant.
4. Petitioner was denied effective assistance of appellate counsel because his
appellate counsel failed to raise the following grounds in his direct appeal:
a. the sentence enhancement violated his right to a jury trial;
b. prosecutorial misconduct;
c. ineffective assistance of trial counsel.
5. The prosecution erred by relying on false testimony and violated Brady.
6. The evidence is insufficient to support his conviction.

Am. Pet. (#16) at 6-7, 11; Am. Mem. (#17) at 2-3.
D.

Request for Evidentiary Hearing
Petitioner asserts that his application for habeas relief raises factual questions,

which have not been addressed by the state courts and that the state has failed to
provide Petitioner with a full and fair hearing concerning his application. Petitioner
concludes that he is entitled to an evidentiary hearing to resolve the factual questions
left unresolved by the state courts.

3

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 4 of 21

DISCUSSION AND ANALYSIS
A.

The Antiterrorism and Effective Death Penalty Act of 1996

The Supreme Court has summarized the basic principles that have grown out of
the Court's many cases interpreting the 1996 Antiterrorism and Effective Death Penalty
Act. See Harrington v. Richter, 562 U.S. 86, 97-100 (2011). The Court noted that the
starting point for any federal court in reviewing a state conviction is 28 U.S.C. § 2254,
which states in part:
An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to
any claim that was adjudicated on the merits in State court proceedings unless
the adjudication of the claim(1)

resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the
Supreme Court of the United States; or

(2)

resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.

28 U.S.C. § 2254(d). The Court noted that "[b]y its terms § 2254(d) bars relitigation of
any claim 'adjudicated on the merits' in state court, subject only to the exceptions in §§
2254(d)(1) and (d)(2)." Harrington, 562 U.S. at 98.
One of the issues Harrington resolved was "whether § 2254(d) applies when a
state court's order is unaccompanied by an opinion explaining the reasons relief has
been denied." Id. Following all of the Courts of Appeals' decisions on this question,
Harrington concluded that the deference due a state court decision under § 2554(d)
"does not require that there be an opinion from the state court explaining the state
court's reasoning." Id. (citations omitted). The Court noted that it had previously

4

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 5 of 21

concluded that "a state court need not cite nor even be aware of our cases under
§ 2254(d)." Id. (citing Early v. Packer, 537 U.S. 3, 8 (2002) (per curiam)). When there
is no explanation with a state court decision, the habeas petitioner's burden is to show
there was "no reasonable basis for the state court to deny relief." Id. And even when a
state court fails to state which of the elements in a multi-part claim it found insufficient,
deference is still due to that decision, because "§ 2254(d) applies when a 'claim,' not a
component of one, has been adjudicated." Id.
As Harrington noted, § 2254(d) permits the granting of federal habeas relief in
only three circumstances: (1) when the earlier state court's decision "was contrary to"
federal law then clearly established in the holdings of the Supreme Court; (2) when the
earlier decision "involved an unreasonable application of" such law; or (3) when the
decision "was based on an unreasonable determination of the facts" in light of the
record before the state court. Id. at 100 (citing 28 U.S.C. § 2254(d); Williams v. Taylor,
529 U.S. 362, 412 (2000)). The "contrary to" requirement "refers to the holdings, as
opposed to the dicta, of . . . [the Supreme Court's] decisions as of the time of the
relevant state-court decision." Dowthitt v. Johnson, 230 F.3d 733, 740 (5th Cir. 2000)
(quotation and citation omitted).
Under the "contrary to" clause, a federal habeas court may grant the writ
if the state court arrives at a conclusion opposite to that reached by . . .
[the Supreme Court] on a question of law or if the state court decides a
case differently than . . . [the Supreme Court] has on a set of materially
indistinguishable facts.
Id. at 740-41 (quotation and citation omitted). Under the "unreasonable application"
clause of § 2254(d)(1), a federal court may grant the writ "if the state court identifies

5

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 6 of 21

the correct governing legal principle from . . . [the Supreme Court's] decisions but
unreasonably applies that principle to the facts of the prisoner's case." Id. at 741
(quotation and citation omitted). The provisions of § 2254(d)(2), which allow the
granting of federal habeas relief when the state court made an "unreasonable
determination of the facts," are limited by the terms of the next section of the statute, §
2254(e). That section states that a federal court must presume state court fact
determinations to be correct, though a petitioner can rebut that presumption by clear
and convincing evidence. See 28 U.S.C. § 2254(e)(1). But absent such a showing, the
federal court must give deference to the state court's fact findings. Id.
B.

Evidentiary Hearing
Section 2254(e)(2) provides:
If the applicant has failed to develop the factual basis of a claim in State court
proceedings, the court shall not hold an evidentiary hearing on the claim unless
the applicant shows that(A) the claim relies on-(i) a new rule of constitutional law, made retroactive to cases on
collateral review by the Supreme Court, that was previously
unavailable; or
(ii) a factual predicate that could not have been previously
discovered through the exercise of due diligence; and
(B) the facts underlying the claim would be sufficient to establish by clear
and convincing evidence that but for constitutional error, no reasonable
factfinder would have found the applicant guilty of the underlying offense.

Petitioner has failed to plead any allegations that would entitle him to a hearing. He
only asserts his claims for relief and that he is entitled to an evidentiary hearing
because the state court factual determination was not supported by the record.
Accordingly, Petitioner's request for an evidentiary hearing is denied.

6

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 7 of 21

C.

Unexhausted and Proceduraliy Barred Claims
Respondent asserts that Petitioner failed to properly exhaust his state court

remedies with respect to his claims that (1) he was denied effective assistance of
appellate counsel because his appellate counsel failed to raise the issues of
prosecutorial misconduct and ineffective assistance of trial counsel in Petitioner's direct
appeal; (2) the prosecution erred by relying on false testimony and violated Brady, and
(3) the evidence was insufficient to support his conviction. Petitioner argues that he has
exhausted, but where it is unclear, he argues his failure to exhaust should be excused.
The exhaustion doctrine requires that the state courts be given the initial
opportunity to address and, if necessary, correct alleged deprivations of federal
constitutional rights. Castille v. Peoples, 489 U.S. 346, 349 (1989). In order to satisfy
the exhaustion requirement, a claim must be presented to the highest court of the state
for review. Richardson v. Procunier, 762 F.2d 429, 431 (5th Cir. 1985). Moreover, all of
the grounds raised in a federal application for writ of habeas corpus must have been
"fairly presented" to the state courts prior to being presented to the federal courts.
Picard v. Conner, 404 U.S. 270, 275 (1971). In other words, in order for a claim to be
exhausted, the state court system must have been presented with the same facts and
legal theory upon which the petitioner bases his assertions. Id. at 275-77. Where a
"petitioner advances in federal court an argument based on a legal theory distinct from
that relied upon in the state court, he fails to satisfy the exhaustion requirement."
Wilder v. Cockrell, 274 F.3d 255, 259 (5th Cir. 2001) (citing Vela v. Estelle, 708 F.2d
954, 958 n.5 (5th Cir. 1983)).

7

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 8 of 21

It is somewhat unclear from the state court records whether Petitioner
exhausted his claim of prosecutorial misconduct. In a document entitled "Applicant's
Proposed Finding of Facts and Conclusions Pursuant to Court Order as of 7-19-18 Made
Returnable to the Texas Court of Criminal Appeals," that was submitted by Respondent
as part of the records from Petitioner's state habeas application, Petitioner does assert
that there was prosecutorial misconduct relating to allegedly false testimony and Brady
violations. SHCR (#12-28) at 23-27. It is unclear whether this document was
considered by the state trial court or the Texas Court of Criminal Appeals prior to the
denial of Petitioner's state habeas claim. In other words, there is some indication that
Petitioner did exhaust his claim that the prosecution erred by relying on false testimony
and violated Brady. Therefore, the Court will address that claim on the merits. It is
clear, however, that Petitioner failed to exhaust his claim for ineffective assistance of
appellate counsel for appellate counsel's failure to raise the issues of prosecutorial
misconduct and ineffective assistance of trial counsel in Petitioner's direct appeal.
Petitioner has also failed to exhaust his claim regarding the sufficiency of the evidence. i
As a consequence of Petitioner's failure to exhaust, Petitioner is procedurally
barred from federal habeas corpus review. Even where a claim has not been reviewed
by the state courts, this Court may find that claim to be procedurally barred. Coleman v.
Thompson, 501 U.S. 722, 735 n.l (1991). If a petitioner has failed to exhaust his state
court remedies and the state court to which he would be required to present his
i

Even if Petitioner had exhausted his sufficiency of the evidence claim, he has not
shown that, viewing the evidence in the light most favorable to the prosecution, no
rational trier of fact could have found the essential elements of the crime beyond a
reasonable doubt. Jackson v. Virginia, 443 U.S. 307, 319 (1979).
8

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 9 of 21

unexhausted claims would now find those claims to be procedurally barred, the federal
procedural default doctrine precludes federal habeas corpus review. Id:, see Nobles v.
Johnson, 127 F.3d 409, 423 (5th Cir. 1997) (finding unexhausted claim, which would be
barred by the Texas abuse-of-the-writ doctrine if raised in a successive state habeas
petition, to be procedurally barred).
Here, if the Court required Petitioner to present his unexhausted claims to the
Texas Court of Criminal Appeals to satisfy the exhaustion requirement, the Texas Court
of Criminal Appeals would find his claim to be procedurally barred under the Texas
abuse-of-the-writ doctrine. See Fearance v. Scott, 56 F.3d 633, 642 (5th Cir. 1995)
C'[T]he highest court of the State of Texas announced that it would as a 'rule' dismiss
as abuse of the writ 'an applicant for a subsequent writ of habeas corpus raising]
issues that existed at the time of his first writ.'") (quoting Ex Parte Barber, 879 S.W.2d
889, 892 n. 1 (Tex. Crim. App. 1994). Further, the Texas habeas corpus statute
prohibits a Texas court from considering the merits of, or granting relief based on, a
subsequent writ application filed after the final disposition of an inmate's first
application unless he demonstrates the statutory equivalent of cause or actual
innocence. Tex. Code Crim. Proc. Ann. art. 11.07 § 4 (West Supp. 1996). In order for
this Court to reach the merits of his claim, Petitioner "must establish cause and
prejudice from [the court's] failure to consider his claim." Fearance, 56 F.3d at 642
(citations omitted).
Consequently, Petitioner's claims that he was denied effective assistance of
appellate counsel because his appellate counsel failed to raise the issues of

9

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 10 of 21

prosecutorial misconduct and ineffective assistance of trial counsel in Petitioner's direct
appeal and his claim that the evidence was insufficient to support his conviction are
unexhausted and procedurally barred.
D.

Speedy Trial
Petitioner contends he was denied his right to a speedy trial. Specifically,

Petitioner argues that the time from his indictment on February 20, 2013, to trial on
October 6, 2015, was uncommonly long and prejudicial. He asserts that the trial court
failed to inquire into the reasons for the delay. He alleges that the judge referenced an
"overcrowded" court docket that led to a delay. Furthermore, Petitioner argues that the
length of the delay entitles him to a presumption of prejudice, though he fails to specify
any prejudice that may have resulted. Petitioner raised this same issue in his state
habeas application and the TCCA rejected the merits of Petitioner's claim. As such, the
AEDPA limits the scope of this Court's review to determining whether the adjudication
of Petitioner's claim by the state court either (1) resulted in a decision that was contrary
to, or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States or (2) resulted in a decision that
was based on an unreasonable determination of the facts in light of the evidence
presented in the state court proceeding.
In Barker v. Wingo, 407 U.S. 514 (1972), the Supreme Court established a fourpart balancing test for determining whether a defendant received a speedy trial within
the meaning of the Sixth Amendment. Under Barker, a court must consider: (1) the
length of the delay; (2) whether the defendant asserted his right; (3) the reason for the

10

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 11 of 21

delay; and (4) the prejudice to the defendant. Id. at 530. As a threshold inquiry, the
petitioner must demonstrate that the length of the delay is presumptively prejudicial.
Id. "Until there is some delay which is presumptively prejudicial, there is no necessity
for inquiry into the other factors that go into the balance." Id.
When post-accusation delay approaches one year, most courts have held it
triggers the speedy trial inquiry. Doggett v. United States, 505 U.S. 647, 651-52 (1992).
Because the delay in Petitioner's case is approximately 32 months (from indictment on
February 20, 2013, to trial on October 6, 2015), it is presumptively prejudicial. Thus,
the Court will consider the remaining three factors.
The second factor under the Barker test is the reason for the delay. To
determine whether Petitioner's right to a speedy trial has been violated the conduct of
the government must be weighed against the conduct of the petitioner. Barker, 407
U.S. at 530. The Supreme Court explained different weights should be assigned to
different reasons. Id. at 531. For example, a deliberate attempt to delay the trial in
order to hamper the defense should be weighted heavily against the government,
whereas a more neutral reason such as negligence or overcrowded courts should be
weighted less heavily against the government. Id. Additionally, the government should
not be held responsible for delays resulting from the defendant's actions. See Bell v.
Lynaugh, 828 F.2d 1085, 1095 (5th Cir. 1987) (holding an eight-year delay did not
violate the right to a speedy trial because most of the delay was attributable to the
defendant).

n

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 12 of 21

The state habeas court found that the record reflected that Petitioner had asked
for multiple resets and passes, and thus any delay was due to the Petitioner's own
actions, not the actions of the State. Specifically, the state habeas court cited the term
"Court Pass" in the docket sheets which it said was "entered when a defendant asks for
a case to be passed." Petitioner contends that the term "Court Pass" is a "sham" and
that the delays were due to the State's negligence in pursuing Petitioner.
Having independently reviewed the entire state court record, this Court finds
nothing unreasonable in the state court's application of clearly established federal law
or in the state court's determination of facts in light of the evidence. The Fifth Circuit
has held the "speedy trial clock is properly tolled in cases where responsibility for the
delay lies with the defendant rather than the state." Nelson v. Hargett, 989 F.2d 847,
852 (5th Cir. 1993). Petitioner has failed to meet his burden to rebut the state court's
factual findings.
The final factor under the Barker test is the degree of prejudice to the defendant
resulting from the delay. If the first three factors weigh so heavily in the defendant's
favor that prejudice may be presumed, "the Government can overcome that by showing
that the presumption is extenuated ... or rebutting the presumption with evidence."
United States v. Frye, 372 F.3d 729, 736 (5th Cir. 2004). However, if the first three
factors do not weigh so heavily as to justify a presumption of prejudice, then the
defendant bears the burden of both establishing actual prejudice and demonstrating
that such prejudice is sufficient to outweigh the other three factors. United States v.
Serna-Villarreal, 352 F.3d 225, 231 (5th Cir. 2003).

12

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 13 of 21

In this case the first three factors do not weigh heavily against the state.
Therefore, Petitioner is required to make an affirmative showing of actual prejudice.
Although Petitioner makes conclusory allegations of prejudice, he fails to specify how
his defense was impaired. Because Petitioner has failed to demonstrate prejudice
sufficient to establish a constitutional violation, Petitioner's speedy trial claim does not
warrant federal habeas corpus relief.
E.

Lesser Included Offense Instruction
Petitioner claims that the trial court erred by denying Petitioner's requested

lesser included offense instruction for misdemeanor assault. Petitioner's allegation does
not state a ground for federal habeas corpus relief. "In a non-capital murder case, the
failure to give an instruction on a lesser included offense does not raise a federal
constitutional issue." Valles v. Lynaugh, 835 F.2d 126, 127 (5th Cir. 1988); Alexander v.
McCotter, 775 F.2d 595, 601 (5th Cir. 1985). Accordingly, Petitioner's claim does not
warrant federal habeas corpus relief.
F.

Prosecutorial Misconduct
As discussed above, it is not clear that Petitioner's claim that the prosecution

erred by relying on false testimony and violated Brady is unexhausted. Consequently,
the Court will address the claim on the merits. Petitioner contends that during trial the
prosecutor was aware that the testimony of Officer Carpenter was false. In addition,
Petitioner contends that the prosecutor withheld the internal investigation of the
arresting officer from the defense.

13

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 14 of 21

Habeas relief may be granted on a claim of prosecutorial misconduct only where
the errors committed by the prosecutor "had substantial and injurious effect or
influence in determining the jury's verdict." Brecht v. Abrahamson, 507 U.S. 619, 637
(1993). A criminal defendant is denied due process when the prosecution knowingly
uses perjured testimony at trial or allows untrue testimony to go uncorrected. Giglio v.
United States, 405 U.S. 150 (1972); Fau/der v. Johnson, 81 F.3d 515, 519 (5th Cir.
1996). To obtain relief on such a claim, a petitioner must show that (1) the testimony
was actually false, (2) the prosecutor knew it was false, and (3) the testimony was
material. Kirkpatrick v. Whitley, 992 F.2d 491, 497 (5th Cir. 1993). Perjured testimony is
only material if it is also shown that there was a reasonable likelihood that it affected
the jury's verdict. Giglio, 405 U.S. at 153-154. "Conflicting or inconsistent testimony is
insufficient to establish perjury." Kutzner v. Johnson, 242 F.3d 605, 609 (5th Cir. 2001).
Here, Petitioner has not shown that Officer Carpenter's testimony was false,
much less that prosecutors knew that the testimony was false and that the testimony
was material. Furthermore, Petitioner's claim that certain evidence was withheld is
wholly conclusory. Petitioner fails to argue what the allegedly withheld evidence would
have shown or how it would have affected the outcome of the trial. Accordingly,
Petitioner's claim does not warrant federal habeas relief.
Having independently reviewed the entire state court record, this Court finds
nothing unreasonable in the state court's application of clearly established federal law
or in the state court's determination of facts in light of the evidence. Accordingly, the

14

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 15 of 21

Court is of the opinion that 28 U.S.C. § 2254, as amended by the AEDPA, bars habeas
corpus relief on Petitioner's claims of prosecutorial misconduct.
G.

Ineffective Assistance of Trial Counsel
1.

AEDPA Impact

Petitioner claims that his trial counsel was ineffective for failing to (1) hire a
medical expert; (2) present exculpatory evidence; and (3) impeach the complainant.
Petitioner raised these same issues in his state habeas application and the Court of
Criminal Appeals rejected the merits of Petitioner's claims. As such, the AEDPA limits
the scope of this Court's review to determining whether the adjudication of Petitioner's
claims by the state court either (1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly established Federal law, as determined
by the Supreme Court of the United States or (2) resulted in a decision that was based
on an unreasonable determination of the facts in light of the evidence presented in the
state court proceeding.
2.

Standard of Review

Ineffective assistance of counsel claims are analyzed under the well-settled
standard set forth in Strickland v. Washington, 466 U.S. 668 (1984):
First, the defendant must show that counsel's performance was deficient.
This requires showing that counsel made errors so serious that counsel
was not functioning as the "counsel" guaranteed the defendant by the
Sixth Amendment. Second, the defendant must show that the deficient
performance prejudiced the defense. This requires showing that counsel's
errors were so serious as to deprive the defendant of a fair trial, a trial
whose result is reliable. Unless a defendant can make both showings, it
cannot be said that the conviction or death sentence resulted from a
breakdown in the adversary process that renders the result unreliable.

15

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 16 of 21

Id. at 687. In deciding whether counsel's performance was deficient, the Court applies a
standard of objective reasonableness, keeping in mind that judicial scrutiny of counsel's
performance must be highly deferential. Id. at 686-689. "A fair assessment of attorney
performance requires that every effort be made to eliminate the distorting effects of
hindsight, to reconstruct the circumstances of counsel's challenged conduct, and to
evaluate the conduct from counsel's perspective at the time." Id. at 689. "Because of
the difficulties inherent in making the evaluation, a court must indulge a strong
presumption that counsel's conduct falls within the wide range of reasonable
professional assistance; that is, the defendant must overcome the presumption that,
under the circumstances, the challenged action might be considered sound trial
strategy." Id. (citation omitted). Ultimately, the focus of inquiry must be on the
fundamental fairness of the proceedings whose result is being challenged. Id. at 69597. Accordingly, in order to prevail on a claim of ineffective assistance of counsel, a
convicted defendant must show that (1) counsel's representation fell below an objective
standard of reasonableness, and (2) there is a reasonable probability that, but for
counsel's unprofessional errors, the result of the proceeding would have been different.
Id. at 687.
3.

Medical Expert and Exculpatory Evidence

Petitioner argues that his trial counsel was ineffective for failing to hire a medical
expert and present exculpatory evidence. These two claims are intertwined because
Petitioner asserts that a medical expert could have presented evidence calling into

16

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 17 of 21

question the testimony of the victim that the scar on her neck was caused by
Petitioner's actions.
When a petitioner questions counsel's failure to call a witness, counsel's decision
is considered to be essentially strategic, and "speculations as to what [uncalled]
witnesses would have testified is too uncertain." Alexander v. McCotter, 775 F.2d 595,
602 (5th Cir. 1985). A petitioner who alleges ineffective assistance of counsel based on
counsel's failure to call either a "lay or expert witness" must "name the witness,
demonstrate that the witness was available to testify and would have done so, set out
the content of the witness's proposed testimony, and show that the testimony would
have been favorable to the particular defense." Day v. Quarterman, 566 F.3d 527, 538
(5th Cir. 2009) (citations omitted).
Here, Petitioner fails to name any alleged expert witness who should have been
called, fails to indicate any alleged expert witness was available, and only explains the
alleged testimony of such a witness in the vaguest of terms. Even assuming that a
medical expert would have testified that the small scar the victim indicated on her neck
was not the result of strangulation, there is no indication that this would have changed
the results of Petitioner's trial. At most it might have called into question the physical
evidence of the strangulation. Petitioner simply has not met his burden to show that
counsel was unreasonable for failing to hire a medical expert or utilize such an expert to
present exculpatory evidence.
Having independently reviewed the entire state court record, this Court finds
nothing unreasonable in the state court's application of clearly established federal law

17

v

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 18 of 21

or in the state court's determination of facts in light of the evidence. Accordingly, the
Court is of the opinion that 28 U.S.C. § 2254, as amended by the AEDPA, bars habeas
corpus relief on Petitioner's claims that his trial counsel was ineffective for failing to
failing to hire a medical expert and present exculpatory evidence.
4.

Failure to Impeach

Petitioner claims that his trial counsel failed to impeach the victim, "instead
focusing on a curious series of questions." Memo. (#17) at 13. Again, Petitioner
appears to assert that counsel should have sought to question the physical evidence of
the scar on her neck. Counsel did, in fact, attempt to impeach her on this point, eliciting
testimony that the victim "could not swear" as to what caused the scar on her neck
because she did not know exactly how it happened. Tr. (#12-20) at 74. In addition,
counsel elicited testimony from the victim that she was intoxicated at the time of the
incident, and Petitioner's claim that the victim had kicked Petitioner was also
introduced. Petitioner fails to explain what additional information should have been
used to impeach the victim. Instead, Petitioner appears to simply dispute the credibility
of her testimony.
Having independently reviewed the entire state court record, this Court finds
nothing unreasonable in the state court's application of clearly established federal law
or in the state court's determination of facts in light of the evidence. Accordingly, the
Court is of the opinion that 28 U.S.C. § 2254, as amended by the AEDPA, bars habeas
corpus relief on Petitioner's claims that his trial counsel was ineffective for failing to
impeach the victim.

18

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 19 of 21

H.

Ineffective Assistance of Appellate Counsel
Petitioner argues his appellate counsel was ineffective for failing to argue in the

direct appeal that Petitioner's sentence enhancement violated his right to a jury trial. As
with claims of ineffective assistance of trial counsel, claims of ineffective assistance of
appellate counsel are reviewed under the two-part Strickland test. Loden v. McCarty,
778 F.3d 484, 501 (5th Cir. 2015). Therefore, Petitioner must show his appellate
attorney's performance was deficient and the deficient performance prejudiced his
defense. Dorsey v. Stephens, 720 F.3d 309, 319 (5th Cir. 2013). Prejudice in the
context of appellate counsel error requires the petitioner to demonstrate a reasonable
probability that he would have prevailed on appeal. Smith v. Robbins, 528 U.S. 259,
285 (2000).
Petitioner pleaded "true" to the enhancement allegation. The state habeas court
found that appellate counsel "did not raise any error regarding the enhancement
allegation because there was no error regarding that allegation or the finding of true
regarding that allegation" and that "any appeal regarding that issue would have been
frivolous." SHCR (#12-32) at 40-41. Petitioner fails to show that any unraised appellate
claim would have been successful.
Having independently reviewed the entire state court record, this Court finds
nothing unreasonable in the state court's application of clearly established federal law
or in the state court's determination of facts in light of the evidence. Accordingly, the
Court is of the opinion that 28 U.S.C. § 2254, as amended by the AEDPA, bars habeas

19

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 20 of 21

corpus relief on Petitioner's claim that he received ineffective assistance of appellate
counsel.
CONCLUSION
Petitioner's application for writ of habeas corpus is denied.
CERTIFICATE OF APPEALABILITY
An appeal may not be taken to the court of appeals from a final order in a
habeas corpus proceeding "unless a circuit justice or judge issues a certificate of
appealability." 28 U.S.C. § 2253(c) (1)(A). Pursuant to Rule 11 of the Federal Rules
Governing Section 2254 Cases, effective December 1, 2009, the district court must
issue or deny a certificate of appealability when it enters a final order adverse to the
applicant.
A certificate of appealability may issue only if a petitioner has made a substantial
showing of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). The Supreme
Court fully explained the requirement associated with a "substantial showing of the
denial of a constitutional right" in Slack v. McDaniel, 529 U.S. 473, 484 (2000). In cases
where a district court rejected a petitioner's constitutional claims on the merits, "the
petitioner must demonstrate that reasonable jurists would find the district court's
assessment of the constitutional claims debatable or wrong." Id. "When a district court
denies a habeas petition on procedural grounds without reaching the petitioner's
underlying constitutional claim, a COA should issue when the petitioner shows, at least,
that jurists of reason would find it debatable whether the petition states a valid claim of

20

Case 6:18-cv-00270-ADA Document 24 Filed 05/09/19 Page 21 of 21

the denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling." Id.
In this case, reasonable jurists could not debate the dismissal or denial of
Petitioner's section 2254 petition on substantive or procedural grounds, nor find that
the issues presented are adequate to deserve encouragement to proceed. Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003) (citing Slack, 529 U.S. at 484). Accordingly, the
Court shall not issue a certificate of appealability.
It is ORDERED that Petitioner's application for writ of habeas corpus is
DENIED.
It is further ORDERED that all other pending motions are DISMISSED.
It is finally ORDERED that a certificate of appealability is DENIED.
SIGNED on May 9, 2019
V

ALAN D ALBRIGHT
UNITED STATES DISTRICT JUDGE

21

